                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOLTT MEMORANDUM

 Case Number: A04060043                                                                       Page 1 of 1



          We reviewed an allegation that the abstract of an NSF award1 is substantially similar to a project
          outlined in an earlier proposal submitted by a different institution2,indicating possible
          misconduct. Although we found that the two projects fell within the same general research area,
          our review did not identify any evidence of either plagiarism or intellectual theft.
                                                                                                               *

          Accordingly, this case is closed.




          1


          I
          2




NSF OIG Form 2 (1 1/02)
